                                             January 20, 2004




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations

                              Jesse L. Funches
                              Chief Financial Officer



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      MEMORANDUM REPORT - REVIEW OF NRC'S
                              IMPLEMENTATION OF THE FEDERAL MANAGERS' FINANCIAL
                              INTEGRITY ACT FOR FISCAL YEAR 2003 (OIG-04-A-05)


This report reflects the Office of the Inspector General’s (OIG) assessment of the Nuclear
Regulatory Commission’s (NRC) compliance with the Federal Managers' Financial Integrity Act
(FMFIA) for fiscal year (FY) 2003. We found that, for FY 2003, NRC complied with FMFIA. We
are not reporting any material weaknesses and this report contains no recommendations.

BACKGROUND

FMFIA was enacted on September 8, 1982, in response to continuing disclosures of waste,
loss, unauthorized use, and misappropriation of funds or assets associated with weak internal
controls and accounting systems. Congress felt such abuses hampered the effectiveness and
accountability of the Federal Government and eroded the public's confidence. FMFIA requires
Federal managers to establish a continuous process for evaluating, improving, and reporting on
the internal controls and accounting systems for which they are responsible.

FMFIA requires that, each year, the head of each executive agency (subject to FMFIA) shall
submit a report to the President and Congress on the status of management controls and
financial systems that protect the integrity of agency programs and administrative activities.
NRC makes its FMFIA assessment and report in its annual Performance and Accountability
Report.

Office of Management and Budget Circular A-123, Revised, Management Accountability and
Control, is the implementing guidance for FMFIA. The term "internal controls," as envisioned by
FMFIA, is synonymous with "management controls" and encompasses program and
administrative areas, as well as the accounting and financial management areas. Circular
A-123 and NRC Management Directive (MD) 4.4, Management Controls, are the agency’s
implementing guidance for FMFIA.
RESULTS

NRC complied with FMFIA requirements for FY 2003. Neither NRC nor OIG are reporting any
material weaknesses. During FY 2003, NRC successfully achieved a redesign of the
managerial cost accounting system and enhanced the documentation of controls and operating
procedures. As a result, managerial cost accounting is no longer considered a material
weakness.

SCOPE/CONTRIBUTORS

We evaluated the management controls related to the NRC’s implementation of FMFIA for
FY 2003, and conducted our work in October and November 2003, in accordance with
Generally Accepted Government Auditing Standards. This review was conducted by Steven
Shea, Senior Auditor and Steven Zane, Team Leader.

If you have any questions or concerns regarding this report, please contact me at 415-5915 or
Steven Zane at 415-5912.

cc:    Chairman Diaz
       Commissioner McGaffigan
       Commissioner Merrifield




                                              2
R. McOsker, OCM/RAM
B. Torres, ACMUI
B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff, CIO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDH/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
W. Dean, OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, DEDR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Caldwell, RIII
B. Mallett RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV




                             3
